WAIVER

Supreme Court of the United States

No. 19-603
Mark Silguero, et al, v. CSL Plasma, Incorporated
(Petitioners) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Xi Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

(X Iama member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Signature f bee
aie .

Date:

 

 

(Type or print) Name_ Bruce J. Douglas
WW Mr. OMs. OMrs. O Miss

Firm___Ogletree, Deakins. Nash, Smoak & Stewart, P.C.

Address _225 South Sixth Street, Suite 1800

City & State_Minneapolis, MN Zip 55402

Phone _612.336.6858

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONERS IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Mr. Sasha M. Samberg-Champion
Mr. Brian D. East
Ms. Lia S. Davis

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available,
